                AUDIT OF THE
        OFFICE OF JUSTICE PROGRAMS
          EDWARD BYRNE MEMORIAL
STATE AND LOCAL LAW ENFORCEMENT ASSISTANCE
   DISCRETIONARY GRANT PROGRAM GRANTS
              AWARDED TO THE
         CITY OF LAS VEGAS, NEVADA


          U.S. Department of Justice
        Office of the Inspector General
                 Audit Division

         Audit Report GR-90-11-002
               February 2011
                    AUDIT OF THE
            OFFICE OF JUSTICE PROGRAMS
              EDWARD BYRNE MEMORIAL
    STATE AND LOCAL LAW ENFORCEMENT ASSISTANCE
       DISCRETIONARY GRANT PROGRAM GRANTS
                  AWARDED TO THE
             CITY OF LAS VEGAS, NEVADA

                            EXECUTIVE SUMMARY

      The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of four Edward Byrne Memorial State and
Local Law Enforcement Assistance Discretionary Grant Program grants
awarded by the Office of Justice Programs (OJP), Bureau of Justice
Assistance to the City of Las Vegas, Nevada (Las Vegas). The purposes of
these grants were to: (1) enhance Las Vegas’s interoperable
communications system; (2) upgrade Las Vegas’ Jail Management System;
(3) develop a program of services for individuals who are chronic inebriates;
and (4) hire a private engineering firm to create design plans for a new
regional public safety complex. As shown in Exhibit 1, Las Vegas was
awarded $667,493 to implement these activities.

                                  EXHIBIT 1
                      OJP GRANTS AWARDED TO LAS VEGAS
                                                                       AWARD
         AWARD Number             START DATE        END DATE 1
                                                                       AMOUNT
         2004-DD-BX-1452           08/01/04          07/31/07          $   395,750

         2004-DD-BX-1468           10/01/04          06/30/06               98,948

         2006-DD-BX-0394           07/01/06          12/31/07               98,723

         2006-DD-BX-0517           10/01/05          09/30/07               74,072
                                                          Total         $ 667,493
     Source: OJP

Audit Results

      The purpose of our audit was to determine whether cost
reimbursements claimed under the grants were allowable, reasonable, and
in accordance with applicable laws, regulations, guidelines, and terms and

     1
         The award end date includes all OJP-approved grant period extensions.
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) budget management and control; (3) drawdowns; (4) program income;
(5) grant expenditures; (6) property management; (7) matching costs;
(8) monitoring of contractors; (9) Financial Status Reports (FSR) and
Progress Reports; (10) grant requirements; and (11) program performance
and accomplishments. We determined that program income, and indirect
costs were not applicable to this audit.

      As a result of our audit, we found that Las Vegas generally complied
with requirements pertaining to internal controls, budget management and
control, matching costs, property management, and select grant special
conditions we reviewed. However, we found weaknesses in the areas of
grant expenditures, FSRs and Progress Reports, program performance and
accomplishments, and monitoring of contractors. Specifically, we noted the
following exceptions:

     •    $74,072 in contract payments were unallowable and inadequately
          supported as a result of Las Vegas improperly modifying an
          existing contract rather than soliciting for new bids and the
          contractor did not deliver on all of the contract requirements;

     •    coding errors and misclassification of expenditures in 2 of the
          4 grants reviewed;

     •    of the 16 FSRs reviewed, 3 were submitted late and 3 were not
          submitted to OJP;

     •    of the 18 Progress Reports reviewed, 14 were submitted late,
          1 was not submitted to OJP, and 1 was inaccurate; and

     •    we could not determine whether Las Vegas achieved its program
          objectives for one of the grants we reviewed (2006-DD-BX-0394),
          because of inaccurate and missing information.

      These items are discussed in detail in the Findings and
Recommendations section of this report. Our report contains seven
recommendations to OJP. Additionally, we discussed the results of our audit
with Las Vegas officials and have included their comments in the report, as
applicable. Further, we requested from Las Vegas and OJP written
responses to our draft report, which we received and are included in
Appendices III and IV, respectively. Our audit objective, scope, and
methodology are discussed in Appendix I of this report.



                                    - ii –
                                      TABLE OF CONTENTS

INTRODUCTION ................................................................................. 1
       Background ................................................................................... 2
       Our Audit Approach ........................................................................ 3
FINDINGS AND RECOMMENDATIONS................................................. 5
       Internal Control Environment ........................................................... 5
            Single Audit............................................................................. 5
            Financial Management System ................................................... 7
       Budget and Management Control ..................................................... 7
       Drawdowns ................................................................................... 7
       Program Income ............................................................................ 8
       Grant Expenditures......................................................................... 8
            Urban Environmental Research .................................................. 9
            Other Grant Related Expenditures ............................................ 12
            Indirect Costs ........................................................................ 12
            Accountable Property .............................................................. 12
       Matching Costs ............................................................................ 13
       Monitoring of Contractors ............................................................. 13
       Reporting Requirements ................................................................ 14
            Financial Status Reports.......................................................... 14
            Progress Reports .................................................................... 16
       Compliance with Grant Requirements ............................................. 19
       Program Objectives ...................................................................... 19
       Conclusion ................................................................................... 20
       Recommendations ........................................................................ 21
APPENDICES:
I.      OBJECTIVE, SCOPE, AND METHODOLOGY ...................................... 23
II.     SCHEDULE OF DOLLAR-RELATED FINDINGS ................................... 25
III.    GRANTEE RESPONSE ................................................................... 26
IV.     DEPARTMENT OF JUSTICE RESPONSE ............................................ 29
V.      ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
         CLOSE THE REPORT .................................................................. 32
                                 INTRODUCTION

      The U.S. Department of Justice (DOJ) Office of the Inspector General
(OIG), Audit Division, has completed an audit of four Edward Byrne Memorial
State and Local Law Enforcement Assistance Discretionary Grant Program
grants awarded by the Office of Justice Programs (OJP), Bureau of Justice
Assistance (BJA) to the City of Las Vegas, Nevada (Las Vegas). The
purposes of these grants were to: (1) enhance Las Vegas’s interoperable
communications system; (2) upgrade Las Vegas’s Jail Management System;
(3) develop a program of services for individuals who are chronic inebriates;
and (4) hire a private engineering firm to create design plans for a new
regional public safety complex. As shown in Exhibit 2, Las Vegas was
awarded $667,493 to implement these activities.

                           EXHIBIT 2
                  OJP GRANTS AWARDED TO LAS VEGAS
                             AWARD      AWARD     AWARD
           GRANT AWARD     START DATE END DATE 2 AMOUNT
          2004-DD-BX-1452           08/01/04        07/31/07       $ 395,750

          2004-DD-BX-1468           10/01/04        06/30/06          98,948

          2006-DD-BX-0394           07/01/06        12/31/07          98,723

          2006-DD-BX-0517           10/01/05        09/30/07          74,072
                                Total                              $667,493
     Source: OJP

      The purpose of the audit was to determine whether cost
reimbursements claimed under the grants were allowable, reasonable, and
in accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) budget management and control; (3) drawdowns; (4) program income;
(5) grant expenditures; (6) property management; (7) matching costs;
(8) monitoring of contractors; (9) Financial Status Reports (FSR) and
Progress Reports; (10) grant requirements; and (11) program performance
and accomplishments. We determined that program income, and indirect
costs were not applicable to this audit.




     2
         The award end date includes all OJP-approved grant period extensions.


                                           -1-
Background

      Located in the southern part of Nevada, Las Vegas was founded in
1905, and it is the largest city in the state. With a population of about
600,000, Las Vegas is a full-service municipality providing the following core
functions: general government; judicial services; public safety; public
works; sanitation; healthcare; welfare; cultural and recreation services;
economic development and assistance; and a transit system. More than two
decades of growth in Las Vegas has resulted in an increased demand for
public safety and emergency response services. According to one of
Las Vegas’s grant applications, Las Vegas’s average daily inmate population
was more than 1,000.

      Specifically, OJP’s BJA awarded four grants to Las Vegas to fund
varying programs and activities, as follows:

      Grant 2004-DD-BX-1452 – Las Vegas intended to use this Fiscal
      Year (FY) 2004 OJP grant to enhance its interoperable communication
      system. The enhancements were to include: (1) wireless data
      connectivity and interoperability; (2) teleconferencing
      communications; (3) crisis management software; and (4) a
      television-based public alert system. OJP approved a modification in
      July 2006 for this grant, when Las Vegas stated that a component of
      the project entitled “Wireless Data Communication Project," valued at
      $100,000, had been cancelled due to technical problems beyond the
      vendor’s control. Additionally, the city requested a 12-month
      extension to re-program the balance of unspent funds for crisis
      management software and to purchase additional 2-way radio devices
      which were anticipated to enhance communication between the city's
      police, fire, and medical services personnel.

      Grant 2004-DD-BX-1468 - Las Vegas intended to use this FY 2004
      OJP grant to upgrade its 14-year-old mainframe-based Jail
      Management System with a new Offendertrak system. The
      Offendertrak system was an “off-the-shelf” software database system
      designed to manage correctional facility information. The Offendertrak
      system was anticipated to allow real-time notification of inmate
      releases to victims, including victims of domestic violence as well as
      holders of temporary restraining orders. The system was anticipated
      to eliminate erroneous or early releases of dangerous offenders by
      providing an effective and timely alert system.

      Grant 2006-DD-BX-0394 – Las Vegas intended to use this FY 2006
      OJP grant to develop a re-entry program to provide services for


                                    -2-
      individuals released from jail who were defined as chronic inebriates. 3
      The program was to provide services necessary to assist clients in
      achieving and maintaining sobriety. In addition, the program was to
      address reintegration and rehabilitation services which would have an
      effect on decreasing the recidivism rate.

      Grant 2006-DD-BX-0517 – Las Vegas intended to use funds from
      this FY 2006 OJP grant to hire a private engineering firm to create
      plans for the construction of a regional public safety complex. The
      primary purpose for the complex was to train emergency first
      responders including firefighters, police officers, paramedics, and
      others in incident coordination and support; resource tracking; and
      information collection, analysis and dissemination. In December 2006,
      OJP approved a modification to this grant to re-direct funds to
      incorporate into the complex a regional emergency operations center,
      regional intelligence fusion center, and a regional 9-1-1 public safety
      dispatch center.

Our Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, we
were guided by the criteria in the OJP Financial Guide. Specifically, we
tested:

      •   Internal control environment - to determine whether the
          internal controls in place for processing payments were adequate to
          safeguard grant funds and ensure compliance with the terms and
          conditions of the grants;

      •   Budget management and control - to determine if there were
          deviations between the amounts budgeted and the actual costs for
          each category;

      •   Drawdowns - to determine whether drawdowns were adequately
          supported and if the grantee was managing grant receipts in
          accordance with federal requirements;


      3
          The Las Vegas Department of Neighborhood Services, which managed the Chronic
Inebriates Program, defined individuals who are considered chronic inebriates as someone
with a bio-psychosocial condition, which may lead to, or is the result of dependency on
drugs or alcohol, and may also have any of the following: a concurrent mental health
disorder; a high rate of arrests, convictions and or incarcerations; and periods of
homelessness.


                                         -3-
     •   Grant expenditures - to determine the accuracy and allowability
         of costs charged to the grant and to evaluate the grantee’s controls
         over accountable property;

     •   Matching Costs - to determine whether a match was required
         under these grants and if so, how costs were shared and whether
         the cost-sharing was in accordance with the award agreement;

     •   Monitoring of contractors - to determine whether Las Vegas
         evaluated contractors’ performance in accordance with applicable
         laws and regulations;

     •   Reporting Requirements - to determine if the required reports
         were submitted on time and accurately reflected grant activity; and

     •   Program objectives - to determine whether Las Vegas made
         reasonable efforts to accomplish stated objectives.

      The results of our analysis are discussed in detail in the Findings and
Recommendations section of the report. Our report contains seven
recommendations to OJP. Additionally, we discussed the results of our audit
with Las Vegas officials and have included their comments in the report, as
applicable. Further, we requested from Las Vegas and OJP written
responses to our draft report, which we received and are included in
Appendices III and IV, respectively. Our audit objective, scope, and
methodology are discussed in Appendix I.




                                    -4-
                     FINDINGS AND RECOMMENDATIONS

              We found that Las Vegas did not follow state
              regulations for one of the four grants we audited
              when it modified an existing contract instead of
              soliciting new bids. In addition, for that same grant
              (2006-DD-BX-0517), Las Vegas did not have
              adequate support for payments made on the
              contract and the contractor did not deliver on all
              elements of the contract. Therefore, we question
              $74,072 in payments to this contractor as being
              unallowable and inadequately supported. We also
              identified several transactions for two of the four
              grants that were miscoded or misclassified. Further,
              Las Vegas submitted 14 of its 18 Progress Reports
              late, one of which was also inaccurate, and it failed
              to submit one Progress Report as required.
              Likewise, Las Vegas submitted to OJP three Financial
              Status Reports late and it failed to submit three
              Financial Status Reports as required. Finally, we
              could not determine whether Las Vegas achieved its
              program objectives for one of the grants we
              reviewed because of the lack of adequate supporting
              documentation.

Internal Control Environment

      We reviewed Las Vegas’s financial management system, policies and
procedures, and the most recent Single Audit report to assess the risk of
non-compliance with laws, regulations, guidelines, and the terms and
conditions of the grants. We also interviewed appropriate grantee program
managers and individuals from Las Vegas’s Finance and Business Services
Department, particularly the Financial Services Division and the Purchasing
and Contracts Division. Finally, we observed the accounting activities in
these departments to further assess risk.

Single Audit

      According to Office of Management and Budget (OMB) Circular A-133,
non-federal entities that expend $500,000 or more in federal awards in a
year shall have a Single Audit conducted. This report is due no later than
9 months after the end of the grantee’s fiscal year. 4 We reviewed the most

     4
         Las Vegas’ fiscal year begins on July 1st and ends June 30th.


                                            -5-
recently completed Single Audit on Las Vegas for the fiscal year ending
June 30, 2009. The report was issued on December 30, 2009, which was
within the 9-month requirement, and it included an unqualified opinion from
the independent auditors without noting any material weaknesses in
Las Vegas’s internal controls. However, we noted three Single Audit findings
from the prior fiscal year relating to the City's compliance with programs
supported by federal funding other than from the U.S. Department of
Justice. The independent auditors found:

     •   15 of the 19 contracts sampled did not contain certifications
         regarding debarment, suspension, and other ineligibility and
         voluntary exclusions;

     •   4 exceptions related to contractors and subcontractors that
         performed contract work but did not submit certified payroll
         documents; and

     •   Las Vegas did not perform non-fiscal monitoring on three sampled
         sub-recipients.

       These three findings did not directly relate to U.S. Department of
Justice grant programs. However, the first two findings above pertained to
Las Vegas’s contract administration, which was an area we became familiar
with when performing our audit fieldwork. Specifically, Grant
2006-DD-BX-0517 involved Las Vegas hiring a contractor to create a
business plan for a regional public safety complex. Therefore, we considered
the first two findings as being cross-cutting issues. The Single Audit report
also included Las Vegas’s response to these findings, including the
establishment of procedures and controls to remedy these issues. One of
the corrective actions included Las Vegas establishing a comprehensive
contract monitoring policy and procedures for administering personal
services contracts. As of the date of our exit conference on October 7,
2010, Las Vegas officials informed us that this policy has been developed,
but has not been formally issued. Based on this information, we believe that
Las Vegas is working towards resolving the contractual oversight issues
identified by the independent auditors.




                                    -6-
Financial Management System

      According to the OJP Financial Guide, grant recipients are required to
“establish and maintain accounting systems and financial records to
accurately account for funds awarded to them.” Further, the accounting
system should ensure that funds are spent in conformance with grant terms
and conditions. The guide also states that funds received for one grant
project may not be used to support another project, and accounting systems
and financial records must segregate expenditures for each project.

       We found that Las Vegas maintained an accounting system and
financial records that in general appropriately accounted for funds received
and disbursed. In the Grants Expenditure section of this report, we describe
five specific grant-related transactions that we identified as being
misclassified in Las Vegas’s accounting system. Although we do not believe
that these specific instances of misclassification are indicative of a systemic
deficiency with Las Vegas’s accounting system, we nevertheless recommend
that Las Vegas ensure that grant-related expenditures are properly coded
and classified.

       Furthermore, we evaluated Las Vegas’s policies and procedures
relating to its financial accounting system. Based on our review of these
policies and procedures, Las Vegas appeared to have adequate segregation
of duties and managerial oversight over its financial management system,
including controls over paying vendors for goods and services.

Budget and Management Control

     The OJP Financial Guide requires prior approval from the awarding
agency if the movement of dollars between budget categories exceeds
10 percent of the total award amount if the total award amount is over
$100,000. We found that there were no budget deviations that required OJP
approval.

Drawdowns

       According to the OJP Financial Guide, recipient organizations should
request funds based upon immediate disbursement or reimbursement needs.
Specifically, recipients should time their drawdown requests to ensure that
federal cash-on-hand is the minimum needed for disbursement or
reimbursement to be made immediately or within 10 days. Las Vegas
officials stated that grant funds were drawn down on a reimbursement basis.
Based on our review, we found that Las Vegas adhered to the Guide’s
federal cash-on-hand requirement.


                                     -7-
      Further, we reviewed the grantee’s drawdowns to determine if grant
funds were deposited in Las Vegas’s bank accounts. We verified that grant
funds were deposited in the city’s official bank accounts.

      We also compared the drawdowns for each grant to Las Vegas’s
respective accounting records. Overall, we found that Las Vegas accurately
recorded drawdowns in its accounting records for three of the four grants.
For Grant 2004-DD-BX-1452, Las Vegas understated total expenditures in its
accounting records by $181 when compared to the total drawdowns.
Las Vegas officials attributed this discrepancy to an accounting error.

Program Income

      According to the grantee, there was no program income associated
with the four grants in our audit. We reviewed the grantee’s accounting
records as well as the approved grant budgets, and found no evidence that
program income had been generated in relation to any of these grants.

Grant Expenditures

      As of December 31, 2007, Las Vegas expended a total of $653,248 on
the four grants we audited. We judgmentally selected a total sample of
53 transactions totaling $534,822 (82 percent) in order to determine if costs
charged to the grant were allowable, properly authorized, adequately
supported, and in compliance with grant terms and conditions. The
expenditures that we selected included payments on contracts, equipment
purchases, and program services. Two of the grants (2004-DD-BX-1468 and
2006-DD-BX-0517) had a total of one or two transactions each. For these
grants, we selected all of the expenditure transactions for our testing. For
the remaining two grants in our scope (2004-DD-BX-1452 and
2006-DD-BX-0394), we selected 25 expenditures composed of 12 of the
highest dollar transactions for each grant; the remaining transactions were
judgmentally selected. The following exhibit provides a summary of our
sample selection.




                                    -8-
                                   EXHIBIT 3
                    SUMMARY OF EXPENDITURE SAMPLE SELECTION
                                       GRANT NUMBERS
                      2004-        2004-           2006-           2006-
  Category          DD-BX-1452   DD-BX-1468      DD-BX-0394      DD-BX-0517         Totals
    Total
 Transactions           86            1               223               2            312
 Transactions
    Tested              25             1              25                2             53
Percentage of
Transactions
   Tested              29%          100%             11%             100%           17%

 Total Grant
                5
Expenditures
                  $382,208         $98,948         $98,020          $74,072       $653,248
  Total Grant
 Expenditures
    Tested        $313,632         $98,948         $48,170          $74,072       $534,822
  Percentage
   Of Grant
 Expenditures
    Tested          82%             100%             49%             100%           82%
Sources: OIG analysis of Las Vegas’s grant expenditures

       We generally found that the sample transactions we selected and
tested were accurately recorded in the accounting records, properly
authorized, and adequately supported. However, we identified two
exceptions: the first relates to Grant 2006-DD-BX-0517 and Las Vegas’s
contract with Urban Environmental Research, LLC (UER); and the second
relates to Grants 2004-DD-BX-1452 and 2006-DD-BX-0394 and the
misclassification of expenditures. We describe both exceptions in more
detail below.

Urban Environmental Research

      In September 2006, OJP awarded a $74,072 grant to Las Vegas
(2006-DD-BX-0517) to have an unspecified engineering firm create a
comprehensive engineering plan for the construction of a regional public
safety complex. The design was to be based on a pre-existing



      5
          For Grants 2004-DD-BX-1452 and 2006-DD-BX-0394, the total grant expenditures
were less than the award amounts. As of May 2008, both of these grants had ended and the
differences between the total grant expenditures and the award amounts were deobligated by
OJP.


                                           -9-
"business plan" that was commissioned in April 2005 for the construction of
a public safety and training facility. 6

      At the time the OJP grant was awarded, Las Vegas already had a
separate $40,000 contract with UER to design a web-based early warning
monitoring system. This project was related to the federal government’s
plans to store nuclear waste approximately 90 miles northwest of the City of
Las Vegas, in Nevada’s Yucca Mountain. 7 In a related matter, the Clark
County Nuclear Waste Division had commissioned a feasibility study also
with UER for a regional emergency operations center, which was issued in
October 2006.

      Shortly after the release of the UER’s feasibility study for Clark County,
Las Vegas submitted a request to OJP to modify the purpose of the grant.
Instead of using the funds for an engineering plan, Las Vegas told OJP that it
wanted to use the grant to revise an “existing project business plan to
incorporate additional critical facilities including a regional emergency
operations center, regional intelligence fusion center, and a regional 9-1-1
public safety dispatch center.” On December 1, 2006, OJP approved this
request to modify the grant’s purpose without any adjustments to the award
amount.

       Rather than solicit bids and award a new contract to revise an existing
business plan, Las Vegas decided to modify its existing $40,000 contract
with UER. On January 3, 2007, with the city council’s approval, Las Vegas
modified its contract with UER to include additional work—develop a
business plan for a regional emergency operation center in the amount of
$74,072. Las Vegas officials justified their decision to modify an existing
contract with UER rather than award a new contract by referring to the
“Scope of Services” section in the existing UER contract. The “Scope of
Services” section stated that UER was required to “provide briefings,
presentations, and other support as requested by the City.” Las Vegas
officials interpreted this clause as allowing it to increase the amount of the

       6
         Las Vegas’ grant application stated, “Work completed to date on this project includes
completion of a comprehensive business plan performed by The Interact Group of Lake
Forest, California.”
       7
          In 1982, the U.S. Congress passed the Nuclear Waste Policy Act of 1982 (NWPA),
which required the establishment of regional nuclear waste repositories, and also established
a repository site screening process. In 1987, Congress amended the NWPA, designating
Yucca Mountain, Nevada as the nuclear waste repository site for the Western United States.
Congress’s designation of Yucca Mountain as a nuclear repository spawned multiple
environmental impact studies and numerous lawsuits filed on behalf of state, local, and tribal
communities affected by the designation. The Department of Energy estimates that the Yucca
Mountain facility will not be operational until 2020 at the earliest.


                                           - 10 -
contract by approximately 200 percent and include a deliverable that was
completely unrelated to the original contract.

        Based on our review of the original contract and its “Scope of
Services,” we believe that Las Vegas’s reference to UER providing briefings,
presentations, and other support as specified by Las Vegas was in reference
to the development of a web-based early warning monitoring system and
not related to the revision of a business plan for an emergency response
facility. Use of this language to justify the expansion of activities well
beyond the scope of the original contract was not appropriate. In our
judgment, the task of revising an existing business plan represented a
significant change in the scope of work that it should have been handled in
accordance with Nevada’s Revised Statutes. 8 Nevada’s Revised Statutes
requires contracts exceeding $50,000 to go through a bidding process.
Moreover, Las Vegas’s Purchasing and Contracting officials agreed with our
assessment and stated that this contract should have gone through the city’s
contract bidding process. Given Las Vegas’s failure to adhere to State
contracting requirements, we consider the $74,072 in grant expenditures
unallowable and therefore we question this amount.

      Additionally, the grant expenditures for this contract included two
payments totaling $74,072. However, the support for these expenditures
did not include a required statement from UER that none of the costs had
been previously billed to Las Vegas. As a result, we consider the two
expenditures totaling $74,072 as being inadequately supported.

      Furthermore, UER was required under the contract’s modified scope of
work to deliver on seven business elements when it revised an existing
business plan. However, we found that UER only delivered on five of the
seven business elements. The missing elements related to a cost-benefit
analysis and a requirement to provide a framework and reporting structure
for managing recurring operations. Given the lack of adequate support and
missing deliverables, we consider the $74,072 in grant expenditures as
inadequately supported and therefore we question this amount.

      Las Vegas’s oversight of the contractor UER is discussed in more detail
in the Monitoring of Contractors section of this report.




       8
          Nevada Revised Statutes § 332.039 requires that “a government body or its
authorized representative shall advertise all contracts for which the estimated annual amount
required to perform the contract exceeds $50,000.”


                                           - 11 -
Other Grant Related Expenditures

       We also identified four transactions related to Grant 2004-DD-BX-1452
and one transaction related to Grant 2006-DD-BX-0394 that were
inaccurately classified in Las Vegas’s accounting records. Las Vegas
classified the four expenditures totaling $40,250 for Grant
2004-DD-BX-1452 as professional services, tools, and a personal computer
when in fact these grant expenditures were for the purchase of equipment,
software, and a laptop computer, respectively. Likewise, Las Vegas
classified a $20,000 payment for Grant 2006-DD-BX-0394 as direct client
services when in fact it should have been classified as professional services.

      Las Vegas officials agreed with our finding and attributed the errors to
inaccurate information provided by program officials. Las Vegas officials
went on to explain that because these transactions were recorded in a
previous fiscal year and that period had already been closed within its
financial accounting system at the time of our audit, it could not make
entries into their system to correct these inaccurate transactions. We
recommend that Las Vegas ensure that grant-related expenditures are
properly coded and classified.

Indirect Costs

      We reviewed the OJP-approved budgets, grant documents, and
Las Vegas’s accounting records and found that Las Vegas did not have
indirect costs for any of the four grants audited.

Accountable Property

      The OJP Financial Guide states that award recipients are “required to
be prudent in the acquisition and management of property with Federal
funds.” Las Vegas budgeted for equipment purchases in two of the four
grants we audited (2004-DD-BX-1452 and 2004-DD-BX-1468). We selected
12 property items that included a web-based emergency operations software
application; video-conferencing equipment; laptop computers; an automated
jail management system application; a video-graphics device for
broadcasting emergency information; and a communication signal repeater.

      Las Vegas had an accountable property policy that defined fixed assets
as equipment with a value of $5,000 or more and a useful life of 2 years or
more. Las Vegas’s policy also required certain “sensitive” and IT-related
equipment, such as cellular phones, personal computers and pagers to be
recorded in its property records.



                                    - 12 -
       We physically verified the existence of all 12 property items that we
selected. In addition, we verified that Las Vegas maintained property
records and all 12 items were recorded in those records. Further, Las Vegas
identified in its property records grant-purchased property items as being
federally funded, in accordance with the OJP Financial Guide.

Matching Costs

      We reviewed the individual grant applications and awards and found
that OJP did not require matching contributions from the grantee. However,
the approved budget for Grant 2006-DD-BX-0394 indicated that local
funding was required in order for Las Vegas to complete the grant-funded
project. According to OJP, if local funding is included in the approved
budget, then the grantee is required to include those expenditures in the
FSR. We found that Las Vegas properly reported its locally funded
expenditures for this grant and maintained adequate support.

Monitoring of Contractors

      The OJP Financial Guide states that grantees are required to “…ensure
that monitoring of organizations under contract to them is performed in a
manner that will ensure compliance with their overall financial management
requirements.” Additionally, Title 28 CFR § 66.36 requires that grantees
“maintain a contract administration system which ensures that contractors
perform in accordance with the terms, conditions, and specifications of their
contracts or purchase orders.”

      In the Grant Expenditures section of this report, we described
Las Vegas’s contract with UER and several concerns that we identified
through our audit. Specifically, we stated that the manner in which
Las Vegas modified an existing contract with UER to accomplish the revised
grant objective was unallowable in that it did not comply with state
contracting requirements. Further, we stated that UER’s invoices lacked
required statements as required by the contract. Lastly, we noted that UER
did not fulfill two of the seven elements that were specified as deliverables in
the contract. Based on these findings, we are questioning the entire amount
of the grant.

       Las Vegas stated in its grant application for Grant 2006-DD-BX-0517
that it would monitor its contractor’s progress through three conferences, or
working-group meetings. At these meetings, the contractor (UER),
discussed with officials from Las Vegas and neighboring communities its
progress relating to the regional public safety complex. Based on our review
of documentation, Las Vegas participated in these three conferences.


                                     - 13 -
However, we did not see how Las Vegas’s participation in these conferences
amounted to proper monitoring of its contractor, UER. Besides participating
in these conferences, we found no evidence that Las Vegas conducted any
monitoring of UER. Couple this with our findings in the Grants Expenditures
section, we believe that Las Vegas failed to properly monitor its contractor,
UER.

       At the time of our audit, Las Vegas’s Program Manager for Grant
2006-DD-BX-0517 and the related UER contract was not the manager over
the grant project when the contract was awarded; she became manager
over the project after substantial elements of the grant project had already
occurred. Therefore, the manager explained that she was unaware of any
policies that required pre-award evaluation of UER’s financial management
system.

      Las Vegas’s City Auditor informed us that it conducted at least three
audits of the City of Las Vegas in 2009 and concluded that it lacked a
comprehensive written policy and procedures relating to contract monitoring.
As a result, the Las Vegas City Auditor recommended that Las Vegas develop
a comprehensive policy and procedures on contract-monitoring. We agree
with the recommendation from Las Vegas’s City Auditor on the development
of a comprehensive policy on the monitoring of contractors. Such a policy
would ensure that Las Vegas receives goods and services provided through
contractors based on the terms of the contracts and in accordance with its
financial management requirements.

Reporting Requirements

      According to the OJP Financial Guide, award recipients are required to
submit both Financial Status Reports (FSR) and Progress Reports. These
reports describe the status of the funds, compare actual accomplishments to
the objectives of the grant, and report other pertinent information. We
reviewed both types of reports submitted by Las Vegas to determine
whether each type was accurately and timely submitted to OJP for the
grants in our audit.

Financial Status Reports

       According to the OJP Financial Guide, FSRs should be submitted no
later than 45 days after the last day of the quarter. However, the "final"
FSR is due 120 days after the "end date" of the award.

     We reviewed the quarterly FSRs submitted for the last four quarters of
each of the four grants under review (total of 16 FSRs) to determine


                                    - 14 -
whether Las Vegas timely submitted to OJP accurate FSRs. As a result of
our review, we found that Las Vegas did not submit 3 FSRs and another 3
FSRs were submitted anywhere from 7 to 57 days late.

                                 EXHIBIT 4
                     FINANCIAL STATUS REPORT HISTORY
            REPORT PERIOD        FSR DUE        DATE
           FROM - TO DATES        DATES       SUBMITTED                      DAYS LATE
                       GRANT NUMBER: 2004-DD-BX-1452
         10/01/06 – 12/31/06             02/14/07           02/07/07               0
         01/01/07 – 03/31/07             05/15/07           04/17/07               0
         04/01/07 – 06/30/07             08/14/07           07/17/07               0
     07/01/07 – 09/30/07(f) 9 11/28/07     11/27/07                                0
                    GRANT NUMBER: 2004-DD-BX-1468
         07/01/05 – 09/30/05             11/14/05           10/17/05               0
         10/01/05 – 12/31/05             02/14/06           04/12/06              57
         01/01/06 – 03/31/06             05/15/06        Not Submitted           N/A
     04/01/06 – 06/30/06(f)   10/28/06   Not Submitted                           N/A
                    GRANT NUMBER: 2006-DD-BX-0394
         01/01/07 – 03/31/07             05/15/07           05/14/07               0
         04/01/07 – 06/30/07             08/14/07           07/24/07               0
         07/01/07 – 09/30/07             11/14/07           11/21/07               7
     10/01/07 – 12/31/07(f)   04/30/08     03/28/08                                0
                    GRANT NUMBER: 2006-DD-BX-0517
         10/01/06 – 12/31/06             02/14/07           01/29/07               0
         01/01/07 – 03/31/07             05/15/07        Not Submitted           N/A
         04/01/07 – 06/30/07             08/14/07           07/11/07               0
     07/01/07 – 09/30/07(f)              01/28/08           03/04/08              36
   Source: OJP and Las Vegas

      In addition, we noted that for two of the grants we reviewed,
Las Vegas failed to submit FSRs on a quarterly basis, but rather submitted
FSRs that covered multiple periods. For example, for
Grant 2006-DD-BX-0517, Las Vegas submitted one FSR in July 2007
covering the 6-month period from January 1, 2007, through June 30, 2007,
instead of two FSRs for each quarterly period. According to a Las Vegas

     9
         The notation “(f)” in Exhibit 4 designates the final Financial Status Report.


                                            - 15 -
official, Grant 2006-DD-BX-0517 ended early and the official believed that
there was no need to submit FSRs during the remaining quarters of the
grant period because there was no grant activity. Las Vegas received a
reminder from OJP on that particular grant and as a result filed the final FSR
late. In total, the grantee failed to submit 3 of the 16 quarterly FSRs
required during the sample review period. We recommend that Las Vegas
implement procedures to ensure that it timely submits FSRs to OJP.

Progress Reports

      The purpose of the Categorical Assistance Progress Report (Progress
Report) is to describe the activities or accomplishment of objectives set forth
in the grant award documents. According to the OJP Financial Guide,
Progress Reports are due to OJP within 30 days after the end of a reporting
period. For each of the four grants we audited, Progress Reports were
required for every semiannual period ending June 30th and December 31st.
Unless otherwise noted, the final Progress Report was due 120 days after
the grant end date.

      In total, we reviewed 18 Progress Reports for the 4 grants in our audit
to determine whether Las Vegas timely submitted to OJP accurate Progress
Reports. We determined that nearly all of the Progress Reports in our
sample were submitted late, sometimes significantly late. As shown in
Exhibit 5, Las Vegas was late in submitting 14 of the 18 sampled Progress
Reports and there was one instance of Las Vegas failing to submit to OJP a
Progress Report. The degree of late reporting ranged from 15 days to 258
days.




                                    - 16 -
                                    EXHIBIT 5
                            PROGRESS REPORT HISTORY
REPORT               REPORT PERIOD                        DATE                       DAYS
  #                  FROM TO DATES         DUE DATE     SUBMITTED                    LATE
                          GRANT NUMBER: 2004-DD-BX-1452
   3              07/01/05-12/31/05                   01/30/06          07/18/06     169
   4              01/01/06-06/30/06                   07/30/06          11/29/06     122
   5              07/01/06-12/31/06                   01/30/07          03/30/07      59
   6              01/01/07- 06/30/07                  07/30/07          08/14/07      15
   7           07/01/07- 07/31/07(f) 10  11/28/07     04/30/08                       154
                        GRANT NUMBER: 2004-DD-BX-1468
   1              07/01/04-12/31/04                   01/30/05          05/09/05      99
   2              01/01/05-06/30/05                   07/30/05          04/14/06     258
   3              07/01/05-12/31/05                   01/30/06          04/14/06      74
   4              01/01/06- 06/30/06                  07/30/06          08/22/06      23
   5            01/01/06- 06/30/06(f)    10/28/06     08/29/06                        0
                        GRANT NUMBER: 2006-DD-BX-0394
   1              07/01/06-12/31/06                   01/30/07          03/03/07      32
   2              01/01/07-06/30/07                   07/30/07          07/12/07      0
   3             07/01/07-12/31/07(f)     04/29/08     04/11/08                       0
                         GRANT NUMBER: 2006-DD-BX-0517
   1             10/01/05 – 12/31/05                  01/30/06       Not Submitted   N/A
   2              01/01/06-06/30/06                   07/30/06          03/30/07     243
   3              07/01/06-12/31/06                   01/30/07          03/30/07      59
   4              01/01/07-06/30/07                   07/30/07          08/14/07      15
   5            07/01/07- 09/30/07(f)                 01/28/08          04/30/08      93
Source: OJP

      We asked Las Vegas program managers responsible for each of the
grants to explain both the degree and frequency of late Progress Report
submissions. With regard to Grants 2004-DD-BX-1452 and
2006-DD-BX-0517, the Program Manager indicated that both of the grants
had ended and both were administered by her predecessor who had
resigned from Las Vegas prior to her arrival. Consequently, she could not
provide us with an explanation as to why the reports were consistently
submitted late. The program managers for Grants 2004-DD-BX-1468 and
       10
            The notation “(f)” in Exhibit 5 designates the Final Progress Report.


                                             - 17 -
2006-DD-BX-0394 acknowledged that Las Vegas’s staff submitted these
reports late.

      We selected a judgmental sample of facts from Las Vegas’s two most
recent semi-annual Progress Reports for each of the four grants we audited
and we attempted to verify the facts contained therein.

      For Grant 2004-DD-BX-1468, we reviewed the grant application,
performance measures, and support related to the implementation of the
automated jail management system. As a result, we found that the
submitted Progress Reports accurately reflected Las Vegas’s activities and
accomplishments related to the grant.

      For Grants 2004-DD-BX-1452 and 2006-DD-BX-0517, we found that
Las Vegas did not maintain support for what was included in its Progress
Reports for these two grants. Las Vegas’s Program Manager explained that
both of the grants were administered by her predecessor and both grants
had ended prior to her arrival. Since her predecessor maintained scant
documentation related to these grants, she could not provide us with
documentation to support the facts contained in the Progress Reports.

     For Grant 2006-DD-BX-0394, we found that the final Progress Report
submitted for Las Vegas’s Chronic Inebriate Program was not adequately
supported. Specifically, we identified the following discrepancies:

     •   Las Vegas stated in its final Progress Report that 96 clients were
         enrolled in the Chronic Inebriate Program; however, supporting
         documentation indicated that 93 clients were enrolled in the
         program. Based on our discussions with Las Vegas officials and our
         review of a sample of individual case files, we determined that the
         underlying spreadsheet that showed 93 clients as enrolled in the
         program was incorrect and that the number reported in the
         Progress Report was the correct figure.

         The Program Manager for the Chronic Inebriate Program attributed
         this discrepancy to human error involving input and coding errors in
         a program-specific spreadsheet. The Program Manager provided to
         us an updated spreadsheet that reconciled to the Progress Report.

     •   Our review of program data showed that the recidivism rate for
         participants was 42 percent, slightly above the goal of 40 percent.
         However, Las Vegas in its final Progress Report did not explain why
         its grant program did not meet this goal. A Las Vegas official
         agreed that there should have been an explanation in the final


                                   - 18 -
         Progress Report for why the grant program did not meet the
         recidivism goal of 40 percent.

     •   Additionally, we learned that data reported in Progress Reports
         were gathered from case files of program clients. We judgmentally
         selected 10 client files for review and found missing and discrepant
         data in all of our samples. We describe in more detail the specific
         inaccuracies in the Program Objectives section of this report. The
         program manager attributed these inaccuracies to human error in
         the data input process.

      The discrepancies and inconsistency of the data maintained by
Las Vegas in support of its Chronic Inebriate Program Progress Reports
precluded us from evaluating the effectiveness of that grant-funded
program. In addition, we were unable to evaluate the information reported
to OJP in Las Vegas’s Progress Reports to determine if the Chronic Inebriate
Program met its grant goals and objectives.

Compliance with Grant Requirements

      We reviewed the award documentation for the four grants we audited
to identify any additional special requirements that Las Vegas was required
to adhere to as a condition of these awards. Our review showed that there
were no other special requirements specified in the award documentation for
the four grants in our scope.

Program Objectives

     According to the award documentation, the purposes of the four grants
awarded to Las Vegas, were as follows:

     •   2004-DD-BX-1452 – enhance the Las Vegas’s interoperable
         communications system,

     •   2004-DD-BX-1468 – upgrade the mainframe based Jail
         Management System with the Offendertrak system,

     •   2006-DD-BX-0394 – develop a program for services to those
         individuals who are chronic inebriates, and,

     •   2006-DD-BX-0517 – hire a private engineering firm to create the
         required design plans for a new regional public safety complex.




                                    - 19 -
       We were able to verify that program objectives were achieved for all of
the grants reviewed, except for grant 2006-DD-BX-0394. In our review of
case files for the Chronic Inebriate Program, we found that 10 of the 10 case
files selected for review had inaccurate or incomplete supporting
documentation. As a result, we were unable to determine whether program
objectives were achieved.

      Las Vegas’s Chronic Inebriate Program policy manual and grant
application identified specific requirements for the services that each
program client should have received as well as the documentation that
should have been prepared and maintained in the case files. We found
numerous discrepancies between the contents of the case files and the
requirements identified in the Chronic Inebriate Program policy manual and
the grant application.

       Specifically, we found that: (1) 5 of the 10 case files reviewed lacked
proper documentation to show that clients were eligible for the program
(i.e., age 18 or older); (2) all 10 case files lacked evidence of frequent
arrests, convictions, or incarcerations; (3) 6 of the 10 case files lacked
documentation to support that the client was a legal citizen of the United
States; (4) 9 of the 10 case files lacked documentation related to the
required client service strategy; (5) 4 of the 10 case files did not have
completed registration and application forms; (6) all 10 cases had no
evidence that long term goals were created nor explanations of how
performance would be measured; and (7) 7 of the 10 case files reviewed
had incomplete, inaccurate, or no reference to the client’s name in the case
file notes.

      According to the Las Vegas Program Manager, the case worker who
was assigned to the cases selected for our review did not adequately
complete or maintain case file documentation. He informed us that the
caseworker’s supervisor was aware of this issue and was addressing the
matter with the employee through regular case file reviews and performance
evaluations. Based on the missing and inaccurate data we found in our
review, we recommend that Las Vegas maintain accurate program
information and documentation to support grant program performance and
accomplishments.

Conclusion

      For the four grants in our scope, we examined Las Vegas’s grant-
related accounting records, FSRs, Progress Reports, and operating policies
and procedures. We found that Las Vegas’s financial management system



                                    - 20 -
generally provides for adequate recording and reporting of grant-related
activities.

      We reviewed 53 transactions from the four grants and generally found
that they were properly authorized, supported, and accurately recorded in
the accounting records. However, we found several misclassified entries.
Furthermore, for one of the four grants (2006-DD-BX-0517), we found that
Las Vegas did not follow state regulations when it modified an existing
contract instead of soliciting new bids. For this grant, Las Vegas also did not
have adequate support for payments made on the contract and the
contractor did not deliver on all elements of the contract. As a result, we
question $74,072 in payments to this contractor as being unallowable and
inadequately supported. Furthermore, we found deficiencies in Las Vegas’s
monitoring and oversight of its contractor associated with Grant
2006-DD-BX-0517.

      Our review also showed that Las Vegas submitted 14 of its 18 Progress
Reports late, one of which was also inaccurate, and it failed to submit one
Progress Report as required. Similarly, Las Vegas submitted to OJP three
Financial Status Reports late and it failed to submit three Financial Status
Reports as required.

     Furthermore, we could not determine whether Las Vegas achieved its
program objectives for one of the grants we reviewed (2006-DD-BX-0394),
because of inaccurate and missing information. Altogether, we made seven
recommendations to OJP to address these findings.

Recommendations

      We recommend that OJP:

      1. Remedy $74,072 in questioned costs related to the unallowable
         method in which Las Vegas’s contracted with UER to achieve
         revised grant objectives.

      2. Remedy $74,072 in questioned costs related to inadequately
         supported payments and the failure of the contractor to deliver on
         all contract requirements.

      3. Ensure that Las Vegas properly codes and classifies grant-related
         transactions.

      4. Ensure that Las Vegas develops a comprehensive policy and
         procedures related to monitoring contractors.


                                    - 21 -
5. Ensure that Las Vegas timely submits all Financial Status Reports
   and Progress Reports.

6. Ensure that Las Vegas submits accurate Financial Status Reports
   and Progress Reports.

7. Ensure that Las Vegas maintains program information and
   documentation to support grant program performance and
   accomplishments.




                             - 22 -
                                                                APPENDIX I

                OBJECTIVE, SCOPE, AND METHODOLOGY

      The objective of the audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants. Accordingly, we did not attach a separate
statement on compliance with laws and regulations or a statement on
management controls to this report. Our audit was of Las Vegas
administration of OJP grants 2004-DD-BX-1452, 2004-DD-BX-1468,
2006-DD-BX-0394, and 2006-DD-BX-0517 and our audit concentrated on,
but was not limited to, the period from August 1, 2004, through
December 31, 2007.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

      We tested compliance with what we consider to be the most
important conditions of the grant. Unless otherwise stated in our report,
the criteria we audit against are contained in the OJP Financial Guide and
specific program guidance. We tested Las Vegas’s grant activities in the
areas of budget management and control, drawdowns, grant
expenditures, matching costs, monitoring of contractors, reporting
requirements, compliance with grant requirements, and program
objectives. We determined that indirect costs, program income, and
management of sub-grantees were not applicable to this audit.

      We conducted our testing by selecting a judgmental sample of grant-
related transactions. It was not our intention to project the results of our
sample to the entirety of each grant. We did not test internal controls for
Las Vegas taken as a whole, but rather we performed limited testing of
internal controls only for the grant programs administered by Las Vegas.

An independent Certified Public Accountant conducted an audit of
Las Vegas’s financial statements. The results of this audit were reported
in the Single Audit Reports that accompanied the Independent Auditor’s
Reports for the year ending June 30, 2009. The Single Audit Reports
were prepared under the provisions of the Office of Management and




                                    - 23 -
Budget Circular A-133. We reviewed the independent auditor's
assessment to identify control weaknesses and significant noncompliance
issues related to Las Vegas or federal programs. The independent
auditor's assessment did not identify any material internal control
weaknesses or compliance issues related to Las Vegas or federal
programs.

      In addition, we performed limited testing of source documents to
assess the accuracy of reimbursement requests and Financial Status
Reports. However, we did not test the reliability of the grantee’s financial
management system as a whole, nor did we place reliance on
computerized data or systems in determining whether the transactions we
tested were allowable, supported, and in accordance with applicable laws,
regulations, and guidelines. We also performed limited testing of
information obtained from OJP’s Grants Management System (GMS) and
found no discrepancies. We thus have reasonable confidence in the GMS
data for the purposes of our audit. However, the OIG has not performed
tests of the GMS system specifically, and we therefore cannot definitively
attest to the reliability of GMS data.




                                    - 24 -
                                                             APPENDIX II

              SCHEDULE OF DOLLAR-RELATED FINDINGS

  QUESTIONED COSTS                                       AMOUNT    PAGE


     Unallowable Costs:
       Unallowable Contract                          $    74,072    11


     Unsupported Costs:
       Inadequately supported contract
       payments and failure to deliver on
       contract requirements                         $    74,072    11


   Subtotal Gross Questioned Costs                   $148,144

   Less Amount Greater Than Award                     $ (74,072)

  TOTAL QUESTIONED COSTS                              $ 74,072


  TOTAL DOLLAR-RELATED FINDINGS                       $ 74,072




Questioned Costs are expenditures that do not comply with legal,
regulatory, or contractual requirements, or are not supported by adequate
documentation at the time of the audit, or are unnecessary or unreasonable.
Questioned costs may be remedied by offset, waiver, recovery of funds, or
the provision of supporting documentation.




                                  - 25 -
                                                                                                            APPENDIX III

                                           GRANTEE RESPONSE




                            December 10, 20 I0



                            David J. Gaschke, Regiona l Audit Manager
                            U.S. DepartmcnI of Justice
                            Office of the Inspector General
                            San Francisco Regional Audit Office
                            1200 Bay"ill Drive, Suite 20 I
LAS VEGAS CITY COUNCIL
                            San Bruno, CA 94066

  OSCAR B. GOODMAN          Dear Mr. Gaschke:
          MAYOR
      GARY REESE
     MAYOR PAD TEM          Please find our response to the draCt audit report on the audit of the Office of Justi ce
    STEVE WOLFSON           Programs (OJ P) Edward Byrne Memorial Justi ce Assistance Grant Program grants
    LOIS TARKANIAN          awarded 10 the city. The audit by the Office of tile Inspector General (O IG) Audit
    STEVEN D. ROSS          Division on four Edward Bymc Memorial Justice Assistance Grant (JAG) gran ts
    RICKI Y. BARLOW
                            resulted in seven recommendations. Each recommendation wil l be addressed
  STAVROS S. ANTHONY
                            separately below.

ELIZABETH N. FRETWELL       R eco l1ll11 c n d ~li o n s
     CITY MANAGER

                                  1. Remedy $74,072 in questioned costs relaled to the unallowable method in
                                     which Las Vegas' con tracted with UE R to achieve revised gran t objectives.

                            Response: DIG maintains the city did not follow Nevada Revised Statutes (N RS) in
                            modifying an ex isting UER con tracl to include work funded from a JAG grant and the
                            work should have been competi ti vely bid. NRS 332.039 I (a) is sited in pmt "a
                            government body or its authorized representati ve shall advertise all contracts for
                            which the estimated an nual amount req uired to perfonn the con tract exceeds
                            $50,000." NRS 332.039 1 begi ns with "Except as otherwise provided by spec ifi c
                            statute," then lists the conditions when bids on contracts must be advert ised.

                            The exemptions referred to at NRS 332.039 to the bidding requirements are spelled
                            out at NRS 332.1 15 . Section I of 332.115 reads in part "Contracts which by their
                            nature are not adapted to awa rd by competitive bidding, inc lud ing contracts for:
                            (b) Profess ional services."

                            UER is a professional consulting fiml otTering services to the pri vate and public
                            sectors in such areas as st rategic planning. economics, stati stics and homeland
                            security. We believe UE R ralls within the exemption rrom co mpetiti ve bidding
                            requirements listed at NRS 332.115 l.(b).
    CITY OF LAS VEGAS           2. Remedy $74,072 in questioned costs related to inadeq uately supported
  400 STEWART AVENUE
LAS VEGAS, NEVADA 89101              payments and the ra ilure orthe contractor to delivery on all con tract
                                     req uirements.
    VOICE 702 229.6011
    TTY 702.3869108
  www.lasvegasnevada ,gov
         FM 00"   (11(111                                                                               _   ..... -...,-,...., ...   "''


                                                           - 26 -
U. S. Department of Justice
December 13, 2010
Page 2



Response: Invoices from UER did not contain a statement required in the contract
that none ofthecos(s had been previously billed to Las Vegas. We feel the inclusion
of this statement in the UER contract was an inadvertent caay over from a prior
contract and is 110t material to the perfomlallce on the contract grant funds were use<!
for. The city strongly maintains thc omission of this statcment from the UER invoices
did not negatively impact the achievement of program objectives.

Additionftl1y, OIG states UER delivered on only five of the seven required business
elements in the contract. Thc two miSliing elements relate to a cost-bcnefit analy~is
and a requirement to provide a framework and rep<lrting structure for managing
recurring operations. UER has been contacted and responded it is willing to complete
work on these two business elemcnts to the satisfaction of the city and OJl'.


    3. Ensure that Las Vegas properly codes and classifies grant-related transactions.

Response: Steps will be takcn to ensure all fulure OJP grant-related cxpenditures are
propcrly coded and classified. A crosswalk will bc established between the Las Vegas
accounting system to properly code and classify grant expenditures in accordance with
grant requirements.

It should be noted all transactions idcntificd by OIGa~ miseoded wcre for services
and supplies. NOllc resulted in a mis-statement of expenses to OJP or on the city's
published financial statemellts.

    4.   Ensure that Las Vegas develops a comprehensive policy and proCedufCS
         related to monitoring contractors.

Response: The policy is eUlTently under review by city management with all
anticipated release date in the first qual1er of201 I. Implementation will be phased in
over six to twelvc months to coincide with the rclease of a new Oracle Contracts
module.


    5. Ensure thaI Las Vegas timely submits all Financial Status Reports and
         Progress Rep<lrts.

Response: The city acknowlcdges Progress Rcports were 110t submillcd timely on the
grams reviewed. The person aSSigned responsihility for this task is no longer with the
city and steps will be taken to ensure Progress Rcports are timely submittcd on future
OJP grams.




                              - 27 -
U. S. Depal1mcnt of Justice
Decembcr 13,2010
Page 3


A column will be added to the Monthly Billing Rccap sheet mai ntained by Financc on
the finllllcial report ing ohll gmnts, indicating which are awards reccived directly
from thc federa l government. This will facilitate thc monitoring of all direct awards to
cnsure Financial Status Reports are timely filed.

     6. Ensure that Las Vegas submits accurate Financial Stotus Reports and Progress
        Reports.

Re$ponse: The city agrees with thc rccommendation and will pLlt processes into place
10ensue futu re reports are accurately filed. A check list will be establ ished to insure
accurate supporting documentation is maintained and reviewed regularly.

     7. Ensure that Las Vegas maintains program infonnation and dQCumentation to
        ~lIpport   grant program performance and accomplishments.

Response: The above recommendation relates to one of the four grants reviewed,
program pcrfonnance and accomplishmcnt was verified on the remaining three grants.
The city acknowledges case fil es were not properly main tained on the one grant. The
person assigned responsibility for reviewing the case fib is no longer with the city.
Before the city accepts any grant funding in the future for projects which entail
extensive monitoring of program participants, procedures will be developed and
Caseworkers traincd on Ihe necessary documentation requirements,




Mark R. Vinccll!
Chief Financial Officer




                              - 28 -
                                                                                           APPENDIX IV

                   DEPARTMENT OF JUSTICE RESPONSE


                                                     U.S. Department of Justice

                                                     Office of Justice Programs

                                                     Office of Audit, Assessment, and Management




DEC 152010

MEMORANDUM TO:               David J. Gaschke
                             Regional Audit Manager
                             Office of the Inspector General
                             San Francisco Regional Audit Office

FROM:                ,iJ",   M,=," A.    H,,","',. Y~'"0/"0.!2 \
                    \,")     DIrector               (j         "J            -Y
SUBJECT:                     Rcsponse to the Draft A'udit Report, Office oj Justice Programs,
                             Edward Byrne Memorial Slale and Local Law Enjorcemeni
                             Assistance Discretionary Gram Program Grants Awarded 10 Ihe
                             Cily oj Las Vegas, Nevada

This memorandum is in response to your correspondence, dated November 19, 2010,
transmitting the subjcct draft audit report for the City of Las Vegas, Nevada (Las Vegas). We
consider the subject report resolved and request written acceptance of this action from your
office.

The report contains 5C\'en recommendations and S74,072 in questioned costs. The following is
the Office of Justice Programs' (OJP) analysis of the draft audit report recommendations. For
ease of review, the re<;ommendations are restated in bold and are followed by our response.

I.      We recommend that OJP remedy the S74,072 in questioned costs related to the
        unallowable method in whic h Las Vegas' contracted with Urhan Envinm nlcntai
        Resea rch, LtC (UER) to achievc rcvised gr.mt objcetivcs.

        We agree with the recommendation. We will coordinate with Las Vegas 10 obtain
        documentation regarding the que~tioned expenditures, and will request a final
        determination from the Bureau of Justice Assistance (BJA) regarding the allowability
        of the method in which Las Vegas contracted with Urban Environmental Research, LLC,
        to achieve revised grant objectives under grant number 2006-DD-8X-OS17. If the
        expenditures are determined to be unallowable, we will request that Las Vegas return
        the funds to the U.S. D~partment of Justice (DOJ), and submit a revised final Federal
        Financial Report (FFR) for the grant.




                                             - 29 -
2.   We recommend lh:lt 0.11' remed y the S74,072 in questioned costs rel:Hed to
     inadcqu!ltely supported payments and the failure of the contractor to deliver on all
     contract requirements.

     We agree with the recommendation. We will coordinate with Las Vegas to obtain
     documentation regarding the questiuned expenditures, and will request a final
     detenninalion from BJA regarding the alluwubility of the modified scope of work
     required under grant number 2006-DO-8X-OS !7. If the expenditures arc determined to
     be unallowable, we will request that Las Vegas return the fUllds to the DOl, and submit a
     revised final FFR for the grant.

J.   We recommend that OJP ensure that Las Vegas properly codes and elassifics
     grant-related transactions.

     We agree with the recommendation. We will coordinate with Las Vegas to obtain a copy
     of implemented procedun::s to ensure that grant-related transactions are properly coded
     and classilied in its accounting system.

4.   We recommcnd that OJ!' ensure tbat Las Vegas develops a comprehensive policy
     and proccdures related to monitoring contractors.

     We agree with the recommendation. We will coordinate with Las Vegas 10 obtain a copy
     of its comprehensive policies and procedures for ensuring that contnlctors are properly
     monitored.

5.   Wc rccommend that OJP ensure that Las Vcgas timely submits all Federal
     Financial Reports (FFRs) and Progress Reports.

     We agree with the recommendation. We will coordinate with Las Vegas to obtain a copy
     of implemented procedures to ensure that quarterly FFRs and annual progress reports arc
     timely submitted to the OOJ.

6.   We recommend that OJP ensure that Las Vegas submits accurate F'FRs and
     progress reports.

     We agree with the recommendation. We will coordinate with Las Vegas to obtain a copy
     of implemented procedures to enS11Te Ih:!1 il1fonnMion reported in FFRs and progress
     reports is aceumte before submission to the 0 0 1.

7.   We recomnlend that OJl' ensure that Lns Vegas maintains program information
     and documcntation to support grant program pcrformance and accomplishments.

     Wc agree with the recommendation. We will coordinate with Las V..:gas lu ubtain a copy
     of imp1crncnll-d procedures to en~ure that documentation to support program performance
     and accomplishments is maintained.



                                             2




                                          - 30 -
We appreciate the opponunity to review and commcnt on thc draft audit rcpon. If you have any
questions or requirc additional infonnntion, pJensc conUct Jcffery A. Haley, Dcputy Dircctor,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Ilnlcy
       Deputy Director, Audit and Review Division
       O ffice of Audit, Assessment, and Management

       James H. l3urch, II
       Acting Director
       Bureau of Justice Assistance

       Amanda LoCicero
       Audi t Liaison
       l3ureau of Justice Assistance

       Kathy Mason
       Program Manager
       Bureau of Justice Assistance

       Richard Theis
       Assistant Director
       Audit Liaison Group
       Justice Management Di vision

       OJP Executive Secretariat
       Control Number20102 187




                                              3




                                           - 31 -
                                                                        APPENDIX V

               OFFICE OF THE INSPECTOR GENERAL
ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

       The OIG provided a draft of this audit report to Las Vegas and OJP.
 Las Vegas’s and OJP’s responses are incorporated in Appendices III and IV,
 respectively, of this final report. The following provides the OIG analysis of
 the responses and summary of actions necessary to close the report.

 Recommendation Number:

       1.   Resolved. OJP concurred with our recommendation to remedy
            the $74,072 in questioned costs relating to Las Vegas’s improper
            method of contracting. However, Las Vegas disagreed with this
            finding and related recommendation.

            Specifically, in its response, Las Vegas stated that the Nevada
            Revised Statutes § 332.115 allows for exemptions to the criteria
            that we cited in our report, if the contract is for professional
            services. Las Vegas stated that its contractor, UER, is a
            professional consulting firm and thereby should be considered
            exempt from competitive bidding requirements as found in the
            Nevada Revise Statues § 332.039.

            As we state in the Grant Expenditures section of our report, for
            Grant 2006-DD-BX-0517, Las Vegas chose to modify an existing
            contract rather than go through a competitive bidding process as
            we understand should have been done according to the Nevada
            Revised Statues § 332.039. Further, although Las Vegas claims
            that UER is a professional consulting firm and thereby should be
            exempt from competitive bidding, Nevada Revised Statute §
            89.020-10 defines “professional service” as “any type of personal
            service which may legally be performed only pursuant to a license,
            certificate of registration or other legal authorization.” Based on
            our review, we did not find that UER met the Nevada Revised
            Statute’s definition for professional service, because the consulting
            provided by UER does not require a professional license.
            Therefore, UER was not exempt from competitive bidding as
            required by the Nevada Revised Statute.

            In its response, OJP stated that it will coordinate with Las Vegas
            to obtain documentation on the questioned expenditures; and
            request a final determination from the BJA on the allowability of




                                      - 32 -
     Las Vegas’s method of procuring UER’s services under Grant
     2006-DD-BX-0517. This recommendation can be closed when OJP
     has provided us with evidence that: (a) BJA has made a
     determination on the allowability of Las Vegas’s method of
     procuring UER’s services and (b) funds determined to be
     unallowable have been remedied.

2.   Resolved. OJP concurred with our recommendation to remedy
     the $74,072 in questioned costs relating to inadequately
     supported payments and the failure of the contractor to deliver on
     all contract requirements. However, Las Vegas disagreed with
     part of this finding and related recommendation.

     As we describe in the Grants Expenditure section of this report, for
     Grant 2006-DD-BX-0517, Las Vegas paid the invoices that it
     received from its contractor, UER, even though those invoices
     lacked a required certification statement. Las Vegas’s contract
     with UER required that UER certify with a statement on its invoices
     that none of the costs that UER has included in its invoices have
     been previously billed to Las Vegas.

     In its response, Las Vegas stated that the required certification
     statement was a carry-over from a “prior contract” and was not
     material to the performance of the contract-modification.
     However, we found that the certification statement originated in
     Las Vegas’s original contract with UER and when that contract was
     modified to incorporate the revised goals of Grant
     2206-DD-BX-0517, Las Vegas did not delete the certification
     requirement. Therefore, we view the requirement for the
     certification statement on UER’s invoices as being in effect and
     valid after the contract was modified. Further, based on Las
     Vegas’s scant monitoring of its contractor, UER, we believe that
     this certification statement constituted a necessary control to
     provide some assurance that UER’s billings were accurate.

     In its response, OJP stated that it will coordinate with Las Vegas
     to obtain documentation on the questioned expenditures and
     request a final determination from the BJA. In addition, Las Vegas
     stated that the contractor, UER, is willing to complete work on the
     two missing business elements that we identified in our audit.
     This recommendation can be closed when OJP has provided us
     with evidence that: (a) the BJA has made a determination on the
     unsupported expenditures; (b) funds determined to be



                              - 33 -
             unsupported have been remedied; and (c) missing business
             elements have been fulfilled by the contractor.

       3.    Resolved. OJP concurred with our recommendation and stated
             that it will coordinate with Las Vegas to obtain a copy of
             implemented procedures to ensure that grant-related transactions
             are properly coded and classified in its accounting system.
             Similarly, Las Vegas stated that steps would be taken to ensure
             grant expenditures are properly coded and classified. This
             recommendation can be closed when OJP provides us with a copy
             of Las Vegas’s procedures that have been implemented to ensure
             accurate coding and classification of grant-related transactions in
             its accounting system.

       4.    Resolved. OJP concurred with our recommendation and stated
             that it will coordinate with Las Vegas to obtain a copy of its
             comprehensive policies and procedures for ensuring that
             contractors are properly monitored. Las Vegas stated that this
             policy is currently under review and is expected to be released in
             the first quarter of 2011, and implemented in phases over 6 to 12
             months. This recommendation can be closed when OJP provides
             us with a copy of Las Vegas’s comprehensive policy on monitoring
             of contractors that has been released and fully implemented.

       5.    Resolved. OJP concurred with our recommendation and stated
             that it will coordinate with Las Vegas to obtain a copy of
             implemented procedures to ensure that quarterly financial and
             programmatic reports are timely submitted to OJP. 11 Las Vegas
             acknowledged that reports were not submitted in a timely manner
             by a former employee. In addition, Las Vegas stated that steps
             would be taken to facilitate the monitoring of federal awards to
             ensure that required reports are timely submitted to OJP. This
             recommendation can be closed when OJP provides evidence that
             Las Vegas has implemented procedures that ensure timely
             submission of its financial and programmatic reports.

       6.    Resolved. OJP concurred with our recommendation and stated
             that it will coordinate with Las Vegas to obtain a copy of
             implemented procedures that ensure the accuracy of information


       11
          According to OJP, grantees were required to prepare and submit FSRs through
September 30, 2009. As of October 1, 2009, the requirement changed requiring grantees to
prepare and submit Federal Financial Reports – a new version of financial reporting.
Throughout this report, we refer to either of the reports as FSRs or simply as financial reports.


                                            - 34 -
     reported in financial and programmatic reports. Las Vegas also
     stated that it would establish a process, including a checklist, to
     ensure that future reports are accurate and adequately supported.
     This recommendation can be closed when OJP provides us with
     evidence that Las Vegas has implemented procedures that ensure
     that accurate and adequately supported financial and
     programmatic reports are submitted to OJP.

7.   Resolved. OJP concurred with our recommendation and stated
     that it will coordinate with Las Vegas to obtain a copy of
     implemented procedures to ensure that documentation to support
     program performance and accomplishments is maintained. Las
     Vegas acknowledged that case files were improperly maintained
     by a former employee. Furthermore, Las Vegas stated that it
     would develop procedures and train case workers on necessary
     documentation requirements for future programs funded by
     grants. This recommendation can be closed when OJP provides us
     with evidence that Las Vegas has implemented procedures that
     ensure information and documentation related to program
     performance and accomplishments are adequately maintained.




                              - 35 -
